       OFFICE OF INSPECTOR GENERAL


                             Catalyst for Improving the Environment



Ombudsman Report



       Review of Actions at Stauffer

       Chemical Company Superfund

       Site, Tarpon Springs, Florida


       Report 2004-P-00018


       June 3, 2004
Report Contributors:	                                  Christine Baughman
                                                       Carolyn Blair
                                                       Stephen R. Schanamann
                                                       Frances E. Tafer




Abbreviations


ATSDR           Agency for Toxic Substances and Disease Registry
EPA             U.S. Environmental Protection Agency
OIG             Office of Inspector General
OU              Operable Unit
ROD             Record of Decision
RPM             Remedial Project Manager
SMC             Stauffer Management Company




Cover photo:	            Photo of the South Parcel, Stauffer Chemical Company Superfund Site,
                         Tarpon Springs, Florida (EPA OIG photo).
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                      INSPECTOR GENERAL



                                             June 3, 2004

MEMORANDUM

SUBJECT:	             Ombudsman Report:
                      Review of Actions at Stauffer Chemical Company
                      Superfund Site, Tarpon Springs, Florida
                      Report 2004-P-00018

FROM:	                Paul D. McKechnie        Paul D. McKechnie
                      Acting Ombudsman
                      Office of Congressional and Public Liaison

TO:	                  J. I. Palmer, Jr.
                      Regional Administrator, Region 4


Attached is our final report on our review of complaints regarding the Stauffer Chemical Company
Superfund site conducted by the Office of Inspector General (OIG). We undertook this work as a
result of issues brought to the attention of the former Environmental Protection Agency (EPA)
Ombudsman and, subsequently, the OIG Acting Ombudsman, by citizens in Tarpon Springs, Florida.
There is local and Congressional interest in the citizens’ issues.

This report contains findings and recommendations that describe needed improvements the OIG
has identified and corrective actions the OIG recommends. This report represents the opinion
of the OIG and the findings contained in this report do not necessarily represent the final EPA
position. Final determinations on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures.

On April 15, 2004, the OIG issued a draft report to EPA’s Region 4 for review and
comment. On May 6, 2004, we held a teleconference call with the Agency to answer questions and
discuss the draft and the Agency’s expected comments. We received the Agency’s response to the
draft report on May 21, 2004. The Agency’s comments in their response to the draft focused on the
accuracy of the report and provided suggestions for clarifications. In general, the Agency agreed with
our report and its findings and recommendations. We provide a summary and general evaluation of
Agency comments and our response at the end of each section of this report. We include the full text
of EPA’s comments in Appendix B.
The findings in this report are only applicable for OIG Ombudsman purposes. Additionally,
these findings are not binding in any enforcement proceeding brought by EPA or the Department
of Justice under the Comprehensive Environmental Response, Compensation, and Liability Act
to recover costs incurred not inconsistent with the National Contingency Plan. We have no objection
to the further release of this report to the public.

Action Required

In accordance with EPA Manual 2750, you are required to provide this office with a written
response within 90 days of the final report date. The response should address all
recommendations. For corrective actions planned but not completed by the response date, please
describe the actions that are ongoing and provide a timetable for completion. Reference to
specific milestones for these actions will assist us in deciding whether to close this report in our
assignment tracking system.

If you or your staff have any questions regarding this report, please contact me at
(617) 918-1471 or Fran Tafer, the Assignment Manager, at (202) 566-2888.




                                                 2

                          Executive Summary

       The Environmental Protection Agency (EPA) Office of Inspector General (OIG) conducted a
       review of issues that citizens brought to the Ombudsman’s attention regarding the Stauffer
       Chemical Company Superfund site in Tarpon Springs, Florida. For purposes of this report, we
       have grouped the citizens’ concerns and our findings into three subject areas. Following are
       those issues and what we found regarding each.

1. Selected Remedy: Including the additional technical studies performed in 2001-2003, is the
remedy selected and presented in the 1998 Record of Decision (ROD) feasible for the Stauffer
Chemical Company Superfund site in Tarpon Springs?

       An independent expert – a hydrogeologist – retained by the OIG agreed with the conclusion
       reached by Stauffer Management Company (SMC) that EPA’s selected remedy is feasible
       because geophysical characteristics of the Stauffer Chemical Company Superfund site should
       support it. SMC’s conclusion was based on the information provided by the additional
       geophysical and groundwater studies that SMC performed in 2001-2003, under an agreement
       with EPA Region 4. This conclusion should allow the Superfund process to continue to the
       remedial design phase. However, the remedy is only feasible if the remedy design incorporates
       the cautionary recommendations included in the draft report of the 2001-2003 geophysical
       study, and if additional groundwater characteristics information and analysis lacking in the 2003
       draft groundwater report is addressed. We recommended that the cautions listed above be
       implemented and that groundwater characteristics be adequately defined for remedial design.
       Region 4 agreed to implement our recommendations.

2. EPA Oversight: Was EPA Region 4 oversight of the Superfund process at Stauffer
Chemical Company adequate?

       We concluded that EPA Region 4 appropriately monitored: site activity; early geophysical and
       groundwater studies; and site contaminant identification. EPA Region 4 Remedial Project
       Manager (RPM) time and travel related to the site were appropriate given the specific issues at
       the site. Contractors, representing EPA, oversaw site activities even when EPA personnel
       were not present.

       However, we do not believe that EPA adequately supported the remedy presented in the 1998
       ROD. Specifically, EPA should have ensured that the additional technical studies performed in
       2001-2003 were completed earlier in the process. Karst, an area of limestone formations that
       often contain sinkholes and is widespread in Florida, was not discussed in any of the study
       reports prior to 2000. According to the OIG’s hydrogeologist, in an area so prone to karst, an
       understanding of the regional and site geology and hydrogeology should have been
       incorporated into the process. We recommended that EPA Region 4 require that any future


                                                   i
      studies in known karst areas include geophysical and related groundwater studies for karst.
      Region 4 agreed to implement our recommendation.

3. Community Involvement: Why is part of the community opposed to the selected
remedy?

      Although Region 4 generally met the community involvement requirements, a segment of the
      community was dissatisfied with the EPA efforts and the remedy selected in the ROD. Some
      members of the community believed Region 4 had failed to be open and frank in their
      discussions and did not take the community concerns seriously. In several instances, Region 4
      did not promptly address community concerns. As a result, some community members were
      skeptical about EPA’s decisions, particularly concerning the remedy selected. The Agency
      requires no formal public participation during the remedy design phase, so community members
      doubted that their remaining concerns would be addressed. We recommended that EPA
      Region 4 revise its January 1993 community relations plan to include site visits during the design
      phase and obtaining community input on design documents. Region 4 agreed to implement our
      recommendation.




                                                  ii
                                       Table of Contents


Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              i




 Introduction
          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1

          Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              3





 Results of Review
          1. Selected Remedy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             5

          2. EPA Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           8

          3. Community Involvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                11




 Appendices
          A. Report of OIG Expert . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               17

          B. Agency Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          39

          C. Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         40





                                                                      iii
                               Introduction
Purpose
          The Environmental Protection Agency (EPA) Office of Inspector General (OIG)
          conducted a review of issues that citizens brought to the Ombudsman’s attention
          regarding the Stauffer Chemical Company Superfund site in Tarpon Springs, Florida.
          The goal of the OIG Ombudsman is to review and report on public concerns regarding
          EPA activities, including Superfund.

          Based on the issues raised, our objectives were to determine:

          •	 Including the additional technical studies performed in 2001-2003, is the remedy
             selected and presented in the 1998 Record of Decision (ROD) feasible for the
             Stauffer Chemical Company Superfund site in Tarpon Springs?

          •	 Was EPA Region 4 oversight of the Superfund process at Stauffer Chemical
             Company adequate?

          •	 Why is part of the community opposed to the selected remedy?

Background
          From 1947 until 1981, Stauffer Chemical Company and a predecessor company
          processed elemental phosphorous at their facility on a 160-acre site (130 acres of
          which was dry land). The ore being processed was mined off-site. During operations,
          phosphate ore was heated in an electric arc furnace, removing the elemental
          phosphorous in its gaseous state,
          and returning it to a liquid state in an
          on-site condenser. The remaining
          sludge was re-heated to recover
          additional phosphorous. Process
          wastes were disposed of on-site in
          unlined lagoons. Dismantling the
          facility began in the early 1990s.

          The site is located along the Anclote

          River, about one mile north of the

          City of Tarpon Springs, Florida, and
                                                   Anclote River from Stauffer Chemical Company
          about two miles upstream from the               Superfund Site (EPA OIG Photo)



                                              1
Gulf of Mexico. The site has two parcels, the South Parcel where most of the
processing occurred, and the North Parcel, with a State road separating the two
parcels. The surrounding land use is a mixture of light industrial, commercial,
recreational, and residential, including an elementary school directly across the street
from the northern edge of the North Parcel. Approximately 9,000-10,000 people live
within a mile of the site. There are numerous wells, private and municipal, near the site.
Though use of the wells for human consumption has not been confirmed, some citizens
maintain that some of the wells are used by the public for drinking water. Region 4
officials concluded that groundwater contamination is limited to the site, and are
unaware of any wells that have been affected by site contaminants.

EPA reports that the hydrogeology of the area consists of two aquifers: a sandy, thin
surficial aquifer 8 feet below the surface; and a deep aquifer, the Floridan, which is the
primary source of drinking water for a large area. Generally, the surficial aquifer, which
is used for irrigation, is separated from the deeper aquifer by a clay layer, though this
layer can be thin or nonexistent under the site. EPA further reports that groundwater
flows to the southwest into the Anclote River, though citizens have questioned whether
EPA has enough data to make this statement.

Citizens and citizen groups contend that the area’s hydrogeology contains:

•   Old and forming sinkholes of varying sizes.
•   Little differentiation between the surficial and the Floridan aquifers.
•   An unknown or tidal groundwater flow.
•   An influence on groundwater movement due to groundwater usage.

Some citizens believe that site sinkholes could cause any structures at the Superfund site
to subside when the underlying ground sinks, and could create ready pathways for
pollutants to travel between the surficial and Floridan aquifers. Indeed, much of
Florida, including this area, is underlain by a limestone base, sections of which have
developed a highly permeable topography, known as karst. Karst is an area of
irregular limestone in which erosion can produce fissures, sinkholes, underground
streams, and caverns. With the possibility of sinkhole pathways, citizens also expressed
doubts about how potential pollutants (contaminants of concern) were identified. These
issues led to citizen questions on the adequacy of EPA’s oversight of activities at the
site.

The site was proposed for the Superfund National Priority List in 1992 and listed in
1994 under the name Stauffer Chemical Company (Tarpon Springs Plant). The
responsible party, Stauffer Management Company (SMC), which was created by the
divestiture of Stauffer Chemical Company in 1987, entered into a voluntary
Administrative Order on Consent to conduct the Remedial Investigation/ Feasibility


                                     2
        Study in 1992. Using contractors, SMC completed the Remedial
        Investigation/Feasibility Study in 1996 under EPA Region 4's oversight.
        SMC conducted a removal action in 1997 to remove phosphorus sludge from above-
        ground storage tanks. A fire occurred during the removal when the phosphorous was
        exposed to air. Since it burns spontaneously on exposure, digging up phosphorus
        waste during remediation could also cause fires.

        EPA signed the ROD addressing cleanup of heavy metals and radiation in soil and
        waste at the site (Operable Unit #1, or OU1) in 1998. EPA planned to address
        groundwater in a second operable unit (OU2) while evaluating it as part of the original
        Remedial Investigation/Feasibility Study. The consent decree, which documents the
        agreement between EPA and SMC to implement the ROD for OU1, was entered in
        Federal Court in November 1999. The major components of the (originally) $9 million
        planned remedy in the ROD included:

        •	 Excavating contaminated soils that exceed residential cleanup standards and moving
           the soils to consolidation areas on site.
        •	 Solidifying and/or stabilizing contaminated materials below the water table in the
           consolidation areas.
        •	 Capping the consolidation areas (including contaminated material above the water
           table that is not being solidified)
        •	 Prohibiting residential use of the site through institutional controls.

        EPA subsequently put the remedy on hold by withdrawing the consent decree. This
        was due to citizen complaints about: the effectiveness of geophysical and groundwater
        testing; the potential effectiveness, long-term stability, and potential dangers of the
        proposed remedy; and the lack of public comment requirements during the remedial
        design/remedial action phase. EPA and SMC signed an agreement in August 2000 for
        SMC to do additional studies (geophysical, groundwater, and treatability) before
        continuing with the remedy. The draft report on the groundwater study, issued in May
        2003, and the geophysical study, issued in June 2003, were made available to the
        public for comment. The treatability draft study was issued in December 2003. Final
        reports had not been finished as of March 11, 2004, when we ended our work.

Scope and Methodology
        Due to citizen complaints and concerns, as well as related letters from a Florida
        Congressional representative in 1999 and 2000, the former National Ombudsman (then
        located in EPA's Office of Solid Waste and Emergency Response) opened a case on
        the Stauffer Chemical Company Superfund site in Tarpon Springs. The case was
        transferred to the OIG when it acquired the Ombudsman function in April 2002. After



                                           3
a preliminary assessment phase during 2002, the OIG Acting Ombudsman determined
a review of the issues was warranted.

We conducted our review from March 2003 through March 2004. We researched the
files we obtained from the former Ombudsman and EPA Region 4. We traveled to the
site for an overview, discussed issues and concerns with citizens and citizens’ groups,
and reviewed their comments in site records. We interviewed key officials in Region 4
who worked on the Superfund site, as well as SMC representatives and contractors.

We also obtained an opinion and report, which is attached as Appendix A, from an
independent expert (a hydrogeologist) on certain hydrogeologic and geophysical
considerations. The hydrogeologic aspects of this site concerned the development of
Florida’s karst, geophysical testing for past and potential sink holes and their effects;
adequacy and effectiveness of the 2001-2003 groundwater and geophysical studies;
and sufficiency and reasonableness of testing and site characterization before the
planned remedy of in-situ solidification, mounding, and capping was chosen. The draft
report on the treatability study was not provided in time to be included in our review.

We performed our Ombudsman review and analysis in accordance with Government
Auditing Standards, issued by the Comptroller General of the United States.

The findings contained in this report are only applicable for OIG Ombudsman
purposes. Additionally, the findings in this report are not binding in any enforcement
proceeding brought by EPA or the Department of Justice under the Comprehensive
Environmental Response, Compensation, and Liability Act to recover costs incurred
not inconsistent with the National Contingency Plan.




                                    4
                                  Results of Review

 1.      Selected Remedy
         Question: Including information from the additional technical studies performed in
         2001-2003, is the remedy selected and presented in the 1998 ROD feasible for the
         Stauffer Chemical Company Superfund site in Tarpon Springs?


                  An independent expert – a hydrogeologist – retained by the OIG agreed with the
                  conclusion reached by Stauffer Management Company (SMC) that EPA’s selected
                  remedy is feasible because geophysical characteristics of the Stauffer Chemical
                  Company Superfund site should support it. SMC’s conclusion was based on the
                  information provided by the additional geophysical and groundwater studies that SMC
                  performed in 2001-2003, under an agreement with EPA
                  Region 4. This conclusion should allow the Superfund process to continue to the
                  remedial design phase. However, the remedy is only feasible if the remedy design
                  incorporates the cautionary recommendations included in the draft report of the 2001­
                  2003 geophysical study, and if additional groundwater characteristics information and
                  analysis lacking in the 2003 draft groundwater report is addressed.

2001-2003 Geophysical Study

                  OIG obtained an independent expert to review the raw data collected during the 2001­
                  2003 geophysical study and the related draft report. This OIG expert found the
                  geophysical investigations and subsequent interpretations to be comprehensive,
                  documented, and detailed. Different geophysical testing methods were correctly
                  performed with technical competence to provide an overlapping picture of the site,
                  allowing interpretation of site hydrogeologic details from various perspectives. The
                  study identified three subsidence areas, including a paleocollapse feature1 along the
                  eastern boundary of the Superfund site. The draft report noted that the remaining area
                  of the site did not show any obvious indications of subsidence activity, and should
                  physically support the remedy. However, the OIG expert stated that (within the limits
                  of the expertise of geologists and hydrogeologists, but not engineers) if the
                  recommendations of the geophysical study are followed, the remedy can be protective
                  of human health and the environment.


         1
           Paleocollapse feature is a term we are using to describe paleokarst – an ancient collapse of karst, or
sinkhole, that later filled in with sediment. Estimated age is over 40,000 years old.


                                                            5
         The 2003 draft report on the geophysical study recommended that the remedy
         implemented must not breach the semi-confining layer between the surficial and
         Floridan aquifers, and should avoid the paleocollapse area. According to the OIG
         expert, the remedy design should specifically consider the variations in depth and
         thickness of the semi-confining layer; consider the potential for ground settlement,
         particularly during construction; put setbacks in place from the paleocollapse area; and
         provide adequate monitoring and control of groundwater flow. The OIG expert further
         noted that the final remedial design should be prepared by specialized engineers who
         are highly qualified and have experience in similar designs in karst areas.

2001-2003 Groundwater Study

         Although the 2001-2003 groundwater study provided information that supported the
         selected remedy, the OIG expert indicated the draft report did not fully address the
         data collected. The 2003 draft report on the geophysical study stated simply that the
         “groundwater flow in the South
         parcel is to the southwest
         toward the Anclote River.”
         The OIG expert’s review of
         this study concluded that the
         groundwater flow is much more
         complex than the 2003 draft
         study report would suggest.
         The lower water-level in the
         well near the northeast corner
         may indicate that the                            View Toward Northeast Corner
         paleocollapse features are                    of South Parcel (EPA OIG Photo)
         influencing the groundwater
         flow in that area. This influence is such that the local flow is sometimes opposite the
         overall southwesterly flow. The draft report did not explain this potential influence of
         the paleocollapse features. The deficiencies in the draft groundwater report should be
         addressed in the design phase, with a better understanding of groundwater flow near
         the paleocollapse feature.

         Another question that the OIG expert believed should have been answered in the draft
         report for the 2001-2003 groundwater study was why there were areas of high
         contaminant concentration (“hot spots”). According to the OIG expert, if the
         contaminants were migrating, there should be elongated areas of contaminants
         spreading out from the point source (plumes). The OIG expert stated that if no plumes
         exist, explaining why there are no plumes and only hot spots is critical to understanding
         the site hydrogeology. EPA Region 4 indicated that it is the nature of the contaminants


                                             6
          involved to bind together with minimal leaching and not to plume. The issue of “hot
          spots” and plumes should also be clarified in groundwater studies during the design
          phase.

Summary

          According to the OIG expert, the 2003 draft groundwater report did not sufficiently
          address the site hydrogeology in a comprehensive fashion. However, as long as the
          understanding of the hydrogeologic framework of the site governs the remedial process
          and the cautionary recommendations in this report are followed, the remedy can be
          protective of human health and the environment. The hydrogeologic framework is
          described in the draft 2003 geophysical report and subsequent comments and
          responses.

Recommendations

          We recommend that the Regional Administrator, Region 4:

          1-1. 	 Require his staff and SMC to implement the cautionary recommendations in the
                 draft report of the 2001-2003 geophysical study and obtain expert geotechnical
                 engineering support appropriate for addressing geophysical and groundwater
                 issues in a karst setting for the site during the design phase.

          1-2. 	 Require further study of groundwater and collection of necessary data during
                 the design phase to ensure that groundwater characteristics are adequately
                 defined for remedy design.

Agency Comments

          The Regional Administrator agreed to implement these recommendations.




                                             7
2.   EPA Oversight
     Question: Was EPA Region 4 oversight of the Superfund process at Stauffer
     Chemical Company adequate?


           We concluded that EPA Region 4 appropriately monitored: site activity; early
           geophysical and groundwater studies; and site contaminant identification. EPA
           Region 4 Remedial Project Manager (RPM) time and travel related to the site were
           appropriate given the specific issues at the site. Contractors, representing EPA,
           oversaw site activities even when EPA personnel were not present.

           However, while we consider the monitoring appropriate, we do not consider EPA’s
           decision to delay detailed geophysical and groundwater testing for the remedy until the
           design phase to be prudent. We do not believe the remedy in the 1998 ROD was
           adequately supported by early technical testing; EPA should have ensured that the
           additional technical studies performed in 2001-2003 were completed earlier in the
           process. Karst, an area of limestone formations that often contain sinkholes, was not
           discussed in any of the study reports prior to 2000.

Monitoring Site Activity

           We compared EPA RPM site activities to Agency requirements and found that the
           RPMs were meeting these requirements through such activities as:

           •   site visits;
           •   coordination with the responsible party and other involved agencies;
           •   ensuring that required studies were completed; and
           •   obtaining comments, including public comment, to complete required reports.

           We noted that the time charged to the Stauffer Chemical Company Superfund site by
           the assigned RPMs averaged between 26 and 36 percent of total time available, which
           is appropriate for RPMs assigned to oversee three or four Superfund sites
           simultaneously.

           Other EPA Region 4 personnel also completed functions related to the Stauffer site,
           including document review and technical and legal comment and input. In addition to
           direct EPA Region 4 oversight, we found that EPA Region 4 Superfund contractors
           were present to oversee some of the SMC site activities, and provided specific EPA
           support, including completion of the site 1995 Baseline Risk Assessment and a 2000
           data gap analysis that identified deficiencies in early geophysical and groundwater
           testing at the site.


                                              8
         Overall, we concluded that EPA Region 4 was appropriately monitoring the Stauffer
         site.

Early Geophysical and Groundwater Testing

         The remedy presented in the 1998 ROD was based on geophysical and groundwater
         testing performed in the late 1980s and early 1990s. EPA Region 4 indicated that they
         had planned to perform more detailed geophysical and groundwater studies during the
         upcoming remedial design phase. EPA guidance allows flexibility in the depth of studies
         and timing of studies at Superfund sites, balancing the need to know more with the
         related costs, so EPA’s decision to delay the detailed testing was allowable. However,
         we do not believe that the EPA decision was prudent, given the known influence of
         karst processes in Florida, as well as the drinking water source involved in this specific
         site. More technical testing should have been performed before issuing the 1998 ROD.

         The tests performed prior to the ROD narrowly focused on specific issues, such as
         identifying buried drums. To cover a large area for one geophysical test, the site was
         laid out in grids, with the grid lines so far apart that only large quantities of drums could
         have been identified. Background conditions and methodology for this test were not
         reported. Follow-on studies were more thorough, but were only somewhat effective
         because complete use of testing methods was not implemented. For example, in one
         study, neither the inphase nor quadrature phases of appropriate electromagnetic testing
         was measured; having the information on both phases is important because the
         relationship of these phases allows a knowledgeable operator to identify if changes in
         terrain conductivity are due to geologic conditions or the presence of buried metal
         objects.

         The role of karst processes in the site hydrogeology was not recognized until 2000,
         when an EPA contractor identified data gaps in prior geophysical and groundwater
         studies performed at the site. The OIG expert noted that the karstic nature of the site
         should have been integrated into the understanding of the hydrogeologic framework of
         the site from 1992 onward and the Agency should have identified and corrected the
         omission of this information. Our expert considered the omission to impact the validity
         of the early hydrogeologic reports, the ROD, and the remedy selected.

Site Contaminants

         Citizens expressed concerns that soil contamination was not being adequately identified
         at the site. For example, citizens were concerned that EPA had not obtained
         information letters from the responsible party, as allowed under section 104(e) of the
         Comprehensive Environmental Response, Compensation, and Liability Act.
         Consequently, the citizens believed not all information about site contaminants was


                                              9
        obtained. Additional concerns were expressed that contaminants of concern were
        improperly eliminated from consideration.

        Although EPA did not require the responsible party to submit section 104(e)
        information letters, the contaminants of concern were identified. The responsible party,
        SMC, was cooperating with EPA Region 4, and the information that the letters contain
        (including potential contaminants) had already been provided to EPA Region 4.
        Testing, sampling, and screening processes were also conducted to identify potential
        contaminants of concern. Our review of reports and other information related to the
        sampling, testing, and screening found that appropriate processes were followed to
        determine contaminants to remediate.

Groundwater

        EPA usually gives priority to the most critically needed cleanup work at a site, and it is
        not uncommon for EPA to address large and complicated sites by breaking the work
        into smaller units (operable units). EPA decided for Stauffer to clean up soil
        contamination first (OU1) and then address groundwater contamination (OU2). It is
        appropriate to address the contamination source first, to prevent leaching of soil
        contaminants into groundwater, and to address groundwater separately through OU2
        was allowable and reasonable. However, the OU1 delay postponed activity related to
        OU2. Further, the OIG expert stated that addressing OU2 earlier in the process might
        have provided an understanding of the relationship between the surficial and Floridan
        aquifers, part of the site hydrogeology that is critical information for OU1. We believe
        this concern is another indication that the groundwater studies performed were not
        adequate. Determination of groundwater issues should be a higher priority when the
        site characterization indicates a karst topography and drinking water sources are
        potentially affected.

Recommendation

        2-1.    We recommend that the Regional Administrator, Region 4, require that any
                future Remedial Investigation/Feasibility Study in known karst areas, especially
                if drinking water sources are potentially affected, should include geophysical
                and related groundwater studies for karst.

Agency Comments

        The Regional Administrator agreed to implement this recommendation.




                                           10
3. Community Involvement
    Question: Why is part of the community opposed to the selected remedy?



          Although Region 4 generally met community involvement requirements, a segment of
          the community was dissatisfied with the EPA efforts and the remedy selected in the
          ROD. Some community members believed Region 4 had failed to be open and frank in
          discussions, and did not take community concerns seriously. We found that, in several
          instances, Region 4 did not promptly address community concerns. As a result, some
          community members were skeptical about EPA’s decisions, particularly concerning the
          remedy selected. The Agency requires no formal public participation during the
          remedy design phase, so community members doubted their remaining concerns would
          be addressed. We believe it is important for Region 4 to continue to involve the
          community during the design phase.

Region 4 Generally Met Requirements for Community Involvement

          One of the goals of the Superfund program is to promote public involvement that is
          informed, reasonable, thoughtful, solution-oriented, and collaborative. Both law and
          EPA guidance have requirements pertaining to community involvement in activities at a
          Superfund site, and Region 4 generally complied with these requirements. Specifically,
          Region 4:

          •	 Developed a community relations plan in January 1993.
          •	 Conducted public meetings when starting the remedial investigation, proposing the
             remedy, and issuing the ROD.
          •	 Issued fact sheets and paid for advertisements for the above significant events.
          •	 Maintained an information repository, including an Administrative Record, at the
             Tarpon Springs Public Library.
          •	 Kept numerous records of public participation and public comments.
          •	 Funded a technical advisory group through an EPA grant as a vehicle for public
             understanding and participation.
          •	 Invited technical experts representing various organizations to comment on several
             recent work plans and reports.

Community Expected More From Region 4

          According to correspondence between EPA and selected individuals living near the
          site, some residents believed EPA officials did a poor job, both technically and in
          communicating with them. These residents indicated problems included: withholding



                                            11
information, not responding promptly, and not addressing their concerns (such as slag
and asbestos). A segment of the community may be influenced by their disagreement
with the selected remedy (i.e., they want all of the waste hauled away, which EPA
believes would pose a greater threat and cost significantly more). In this case, there
was no indication that EPA withheld information from the community, although there did
seem to be a pattern of delays in addressing concerns. Details follow.

Information Flow

EPA held public meetings mandated by law. Additionally as required, in March
1993, EPA set up an information repository at a public library near the site, and
released a flyer providing its location. This repository included the Administrative
Record, as well as other documents relevant to any cleanup decisions made by EPA.
A review of the Administrative Record indicated that it included key documents, such
as the remedial investigation report, feasibility study, record of decision, and
explanations of significant differences. These documents were generally put in the
repository promptly, in some cases within a few days. Thus, Region 4 did not appear
to withhold information.

Response to Questions and Concerns

Community members complained several times, especially before 1998, about EPA not
promptly responding to their questions and concerns. For example, in a letter dated
August 1997 to EPA Administrator Browner, a resident asked EPA to replace the
RPM, in part, because of communication problems:

        The community’s right to know about a Superfund site is not being met.
        There has been no improvement in the flow of information since our last
        letter to you. Generally, questions are still being ignored - not only our
        questions, but other members of the community.

We found that there was a basis for the community’s concern about the delays in
communication. We reviewed correspondence in the site file related to 25 written
inquiries from the author of the above letter. As shown in the box on the following
page, the Agency did not always respond promptly to the inquiries.




                                   12
                                  Days Between Inquiry
                                   and EPA Response


                   Number of
Elapsed Days        Inquiries                             Comments

  Unknown                     6   The elapsed days for these six inquiries could not be
                                  determined because either the original request or the
                                  Agency response was not in the file.

 0-31 Days                    9   We considered these to be timely responses.

Over 31 Days                10    The Agency responses were from 44 to 134 days after the
                                  inquiry.

                            25



        Addressing Concerns

        On numerous occasions, community members criticized EPA’s investigation of the site.
        Two issues on which they expressed particular concern were off-site slag and asbestos
        on the site. In both cases, citizens said they told EPA about the problem, but EPA did
        not address the issue (i.e., EPA did not listen to them). Documentation in the site files
        supported that EPA knew about slag from the beginning, but not about the asbestos. In
        neither case did the contamination require remediation under Superfund.

        Slag: During a May 1987 site visit, EPA learned that slag from the plant was sold and
        used in railroad ballast and road building. Also, radiation readings taken during the visit
        showed elevated levels of radiation in the slag pit area. The September 1988 report on
        the expanded site investigation noted “Slag was . . . crushed and sold as construction
        material”; a 1989 letter from a community member pointed out to Region 4 that slag
        was “incorporated in road and construction materials all around”; and another local
        resident said the RPM was told about the off-site slag problem on several occasions.
        However, the resident said that because representatives of the responsible party denied
        it, EPA did nothing.

        Following the May 1996 public meeting on the proposed remedy, EPA realized the
        matter was an issue that needed to be addressed. Initially, EPA let a State agency do
        so, but there were complaints from community members about State efforts. About
        April 1998, EPA decided to test some of the off-site slag to determine whether it
        presented a health problem, and in July 1998 collected samples of off-site slag. At a
        January 1999 public meeting, representatives of EPA and the Agency for Toxic
        Substances and Disease Registry (ATSDR) discussed the results. ATSDR concluded
        that there was currently no general health hazard posed by the off-site slag, although


                                            13
          some members of the public believed there was not enough testing to support this
          conclusion.

          Asbestos: Asbestos was reportedly used to insulate various process units at the
          Tarpon Springs plant and was stored in bulk on the site. Thus, the site soil may have
          been contaminated with residual asbestos fibers, which can cause significant health
          problems if inhaled. EPA did not test for asbestos in the soil during the early studies of
          the site; asbestos was not on the target list of inorganic substances for which EPA
          would usually test. The first document we found in the site file indicating asbestos may
          be a problem concerned a public meeting in December 1996. At this meeting, EPA
          officials learned that in 1987 an employee of Stauffer Chemical Company contracted a
          debilitating lung disease from asbestos at the plant. Although EPA intended to wait and
          test for asbestos before removing the soil, SMC tested the soil for asbestos in 1997
          and 1998 as part of the soil/slag leachability study and site-wide sampling for asbestos.
          The results showed that asbestos was not a significant or widespread contaminant at the
          site. However, EPA identified asbestos as a contaminant of concern in the July 1998
          ROD.

Summary

          We concluded that local citizens and citizen groups wanted to be involved in the
          Superfund activities, and Region 4 took positive steps to involve them. However, EPA
          did not always promptly address community questions and concerns. Regarding both
          off-site slag and asbestos, EPA delayed taking action (although SMC did not). As
          discussed in section 2 concerning geophysical and groundwater testing, EPA guidance
          allows flexibility in the depth and timing of studies at a site. For the Stauffer site, EPA
          indicated it intended to do asbestos testing and further geophysical testing during a later
          phase. However, SMC completed the asbestos testing before the ROD. EPA
          amended the consent decree to include geophysical studies during the remedial design
          phase. Some local citizens were skeptical that EPA would actually implement the
          geophysical testing properly. We believe the EPA delays in performing the off-site slag,
          asbestos, and geophysical studies, especially to the level envisioned by concerned
          citizens, upset some of the local citizens, many of whom are opposed to leaving the
          contaminants on the site. Although EPA may never be able to reconcile them to the
          selected remedy, good community involvement can be achieved without unanimous
          agreement on remedy selection.

          We believe continued citizen involvement will help ensure that the design phase of the
          cleanup is carried out in the best possible way. Although the requirements do not
          specify much community involvement during the design phase, EPA should nonetheless
          ensure that community involvement continues, and it should document such intention.



                                              14
Recommendation

        3-1	   We recommend that the Regional Administrator, Region 4, require staff to
               revise the January 1993 community relations plan to include (a) visits to the site
               by the remedial project manager and other appropriate Region 4 staff during
               the design phase so that they are available to personally interact with the local
               citizens, and (b) specific steps to periodically obtain community input on design
               documents.

Agency Comments

        The Regional Administrator has agreed to implement this recommendation.




                                          15
16

                       Appendix A



Report of OIG Expert




         17

18

     Evaluation of Geophysical and
Hydrogeologic Studies Conducted on the
 Stauffer Chemical Company Superfund
    Site near Tarpon Springs, Florida


                     Prepared for


         U. S. Environmental Protection Agency
               Office of Inspector General


                     Prepared by


           P.E. LaMoreaux & Associates, Inc.
            106 Administration Road, Suite 4
             Oak Ridge, Tennessee 37830
                          And
                  1009A 23rd Avenue
                 Tuscaloosa, AL 35401



                     March 2004
Introduction

      P.E. LaMoreaux & Associates, Inc. (PELA) has been contracted to provide an
independent assessment, verbally and in writing, of whether (a) the Stauffer-Tarpon
Springs Superfund site was properly characterized before the remedy was selected
and whether (b) the Additional Studies provide reasonable assurance that the remedy,
as planned, will provide long-term effectiveness. This work is being performed under
Contract Number GS00K97AFD2162, Order Number 11CVT681010, A&T Project
Number 1400-031.
      The basis of PELA’s assessment is a detailed review of previous investigations
and geophysical studies by various consultants (both prior to and subsequent to the
Record of Decision [ROD], July 1998) as provided by the Office of Inspector General
(OIG)of the US Environmental Protection Agency (EPA), including the current studies
by Parsons Engineering Science, Inc. and O’Brien and Gere Engineers, Inc. &
Technos, Inc.1, and a site visit (August 13, 2003), attendance at two Technical Review
Committee meetings (August 14 and October 22, 2003), a meeting on September 15,
2003 with Lynn Yuhr, a geophysicist with Technos, Inc., independent background
research, and the personal expertise of PELA’s staff. The previous studies by various
consultants, as provided to PELA by the EPA OIG, will collectively be referred to as
“the Record.”

      The specific subtasks or items to be assessed are provided below, in bold.
Each is directly followed by PELA’s evaluation/opinions.

TASK ONE: Whether testing done and studies conducted prior to Superfund site
clean-up remedy selection were both effective and timely enough to characterize
the site, especially considering hydrogeologic considerations.

       In Chapter 3 of Guidance for Conducting Remedial Investigations and
Feasibility Studies Under CERCLA (October 1988; referred to herein as simply “the
Guidance”) the components of the site characterization process and relevant field
investigation methods are described. By definition, the site characterization process
provides the information needed to determine the extent and scope of a specific
contamination problem and to adequately design remediation strategies.

        An important component of site characterization is the investigation of the site’s
physical features (Section 3.2.2), including surface features, geology, and
hydrogeology. Determination of the site hydrogeology (Section 3.2.2.5) involves
identifying geologic characteristics, hydraulic properties and ground-water use.
Further definition is provided in accompanying tables in the Guidance, including:

1 Technically, the Geophysical Studies report, 2003, was prepared by O’Brien and Gere Engineers,
Inc., to whom Technos was a subcontractor. O’Brien and Gere Engineers, Inc. is the only firm that is
cited on the cover or title page. However, it is obvious to all who attended the Technical Review Meet-
ings, that this report was prepared by Technos under subcontract to O’Brien and Gere, as noted within
that report. It appears to be more appropriate to reference this document as being prepared by O’Brien
and Gere Engineers, Inc. and Technos, Inc.
      Geology of unconsolidated overburden and soil deposits –
            Thickness and areal extent of units
            Lithology; mineralogy
            Particle size and sorting; porosity

      Geology of bedrock
            Type of bedrock
            Lithology; petrology
            Structure (folds, faults)
            Discontinuities(joints, fractures, bedding planes, foliation)
            Unusual features such as igneous intrusive bodies (dikes), lava tubes, or
                solution cavities in limestone (karst) [ Bold added for emphasis.]

       Based on a review of the Record, PELA concludes that the National
Contingency Plan (NCP) and the Guidance were acknowledged as authoritative
guidance documents in both the EPA comments and in responses by the consultant(s)
for the Potentially Responsible Parties (PRPs). This guidance applies to the
development of work plans for the Remedial Investigation (RI) and to the reports of
previous site work.

       Therefore, an understanding of the regional and site geology and hydrogeology
should have been incorporated into all comprehensive reports, although this general
framework need not have been mentioned in specialized reports such as tabulations of
analytical results or reports specifically focused on one aspect of the problem—such
as the possible existence of buried drums. Moreover, as demonstrated by the current
(2003) report by O’Brien and Gere Engineers, Inc. & Technos, Inc., geophysical
technology could have been used to great advantage to document the hydrogeologic
framework of the site between the widely-spaced data from borings.

         Initial geophysical investigations were conducted by Delta (1986), and
subsequently by NUS (1988a) and Weston (1990). In these investigations, the
geophysics was directed at answering two questions: (1) Was there a large cache of
metal drums on site, and (2) Was there a contaminant plume. Although the Delta
investigation used technology that was then appropriate for the state-of-practice, the
report did not explain any background conditions, methodology, or methods of
interpretation. There was no discussion of how “noise” was eliminated or why the data
they recorded were valid. A large volume of magnetometer data was included in an
appendix, but no explanation or column headers were included, making the data
difficult to evaluate. In Delta’s discussion of the methodology of the magnetometry,
survey consideration should have been given to the spacing of the grid lines. The
density of readings along the traverse should be related to the wavelength of
anomalies of interest such that several readings are obtained for any such anomaly. A
trial line with relatively dense stations is usually attempted first to determine the
required station density. In the report it is stated that the local 60’ grid was measured
at 30’ intervals. This is such a coarse grid spacing that only very large quantities of
barrels spread over a broad area might be detected. However, Delta did cover a large
area with their investigation.
        Presentation of Delta’s magnetic data should have included several profiles to
show the variation from a magnetically quiet area to an area of anomalous activity.
Effective interpretation requires profiles which preserve all the detail of the original
readings, and contour maps which allow trends and patterns to be identified. The
plotting by Delta of only high, medium, and low anomalies is a subjective process and
does not allow the reader to see and interpret the data in intermediate areas. Also,
there was no discussion of the potential depth of the identified anomaly areas, which
could have been interpreted based on the characteristics of the anomaly wavelength.

       Further, Delta performed only 6 vertical electrical sounding (VES) resistivity
surveys, with somewhat inconclusive results and a lack of discussion or correlation to
magnetic data. Of the five times that “possible sludge material” is noted as layer 1 of
the interpretation, three times the resistivity is below 50 ohm meters, and in the
subsequent two times it is above 100 ohm meters with no explanation of the change.
Also NUS (1988a) and O’Brien and Gere Engineers, Inc. & Technos, Inc. (2003) both
state that the surface layer is extremely resistive, which affects the accuracy of the
data. However, the site conditions at the time of Delta’s investigation are unknown.

        Using the Delta interpretation as a starting point, NUS (1988a) provided a more
complete and technical report, which adequately described methodology and
interpretation. NUS confirmed the location of subsurface metallic materials in three
areas where drum disposal was suspected, based on magnetometer and EM
(electromagnetic) data, but did not measure both the inphase and quadrature phase of
the EM-31 signal. The relationship of these phases allows a knowledgeable operator
to determine if a change in the bulk terrain conductivity is from a change in subsurface
geologic conditions or the presence of buried metallic objects. The very coarse data
grid used by NUS introduced an inherent bias into the data in which almost all “bull’s-
eye” anomalies correlate to only one data point. NUS also determined that the
saltwater encroachment into the surficial aquifer would mask any conductivity
variations possibly caused by a contaminant plume, a conclusion which would not
actually have required any field work. Thus, these investigations using magnetometer
and EM data were somewhat effective, but in a limited capacity.

       The Site Sampling Report (Roy F. Weston, Inc., 1990) used EM and magnetic
gradiometry to attempt to locate a buried off-take duct and a roaster barrel. This is the
most technically complete and useful of the three geophysical studies conducted prior
to the issuance of the ROD (1998) and the current geophysical report by O’Brien and
Gere Engineers, Inc. & Technos, Inc. (2003).             Accurate field methods were
demonstrated by conducting a control grid to define background conditions, and by
establishing a base station to record diurnal variations. Appropriate use of technology
was demonstrated by measuring and recording both inphase and quadrature phase
components of the EM-31 data. The quadrature phase is related to the bulk
conductivity of the subsurface. It is influenced by soil type, the amount of soil
moisture, the conductivity of the soil moisture, and the presence of metal. The
inphase portion of the induced signal is influenced primarily by the presence of metal.
This combination of responses allows the geophysicist to separate the influence of
various objects. However, Weston did not address the quadrature EM data; in their
report there was no discussion and no diagram.

       In general, the application of geophysics to the Stauffer site prior to the ROD
exhibits a number of shortcomings.

      1. From the beginning there should have been an integrated approach
         between hydrogeology and geophysics, using geophysics to refine
         characterization of the hydrologic framework. Geophysics was used
         primarily as a metal detector.

      2. While boreholes were being installed to study the ground water, geophysical
         logs would have been helpful to provide a more comprehensive
         understanding of the subsurface strata. As shown later, by O’Brien and Gere
         Engineers, Inc. & Technos, Inc. (2003), geophysical logs could be used to
         verify the presence and thickness of the semi-confining layer (SCL).

      3. Geophysical investigations should have been expanded to include
         background areas that were not impacted by construction, burial, or
         contamination, so that a comparison could be made.

      4. Much of the early geophysical data did not provide adequate coverage—the
         grid was too coarse (e.g., a 30’x60’ grid for detecting drums).

        The site hydrogeology is a specific subset of the regional hydrogeologic
framework. The hydrogeology in West-Central Florida has been modified by the
development of karst which is common to the Tertiary aquifers developed around the
Gulf of Mexico, from Florida to Yucatan and including the Caribbean islands (Beck,
1986b). The detailed understanding of the impact of karst development on the
hydrogeologic framework in Florida began to be common professional knowledge in
the 1980’s with the meetings and publications of the Florida Sinkhole Research
Institute at the University of Central Florida. The Florida Sinkhole Research Institute
was established in 1983 and began conferences in 1984. The Institute was an
authoritative source for accumulating and clearing information through the time it was
dissolved for lack of funding in 1992. During the 1980’s the USGS also issued
numerous publications documenting the karstic nature of this area of Florida, as did
the State Geological Survey (Table 1).

       Earlier publications, such as Ground Water Resources of Pinellas County,
Florida (Heath and Smith, 1954) did not include the role of karst processes in their
understanding of the hydrogeologic framework in this area. As late as 1974, Cherry
and Brown, in a published evaluation of the hydrogeology of a sanitary landfill site near
Tampa Bay, did not mention the impact of karst on the potential for pollution of the
Floridan Aquifer.
                                         Table I
             A Selection of References to Karst in West-Central Florida
                        Published Prior To and Including 1993.
Sinclair, W.C. and Stewart, J.W., 1985. Sinkhole Type, Development, and Distribution
in Florida: U.S. Geological Survey, Map Series No. 110
Sinclair, William C., Stewart, J.W., Knutilla, R.L., Gilboy, A.E. and Miller, R.L., 1985,
Types, Features, and Occurrence of Sinkholes in the Karst of West-Central Florida,
Water Resources Investigation Report 85-4126, U.S. Geological Survey, Tallahassee,
Florida., 81 p.
Beck, Barry F., 1986, A Generalized Genetic Framework for the Development of
Sinkholes and Karst in Florida, U.S.A.: Environ Geol Water Sci. Vol. 8, Nos. 1/2, p. 5­
18.
Beck, Barry F., 1986, Ground Water Monitoring Considerations in Karst on Young
Limestones: Proceedings of the Environmental Problems in Karst Terranes and Their
Solutions Conference, Oct. 28-30, 1986, Bowling Green, KY, National Well Water
Association, Dublin, Ohio. p. 229-247
Lane, Ed, 1986, Karst in Florida, Special Publication No. 29, State of Florida, Dept. of
Nat. Res., Div. of Resource Mgmnt., Bureau of Geology, Tallahassee, Florida. 86 p.
Beck, Barry F. and Wilson, William L., 1987, The Karst Hydrogeology of the Central
West Coast of Florida and some Associated Engineering Techniques: Report No. 86-
87-1, Florida Sinkhole Research Institute, University of Central Florida, Orlando, 79 p.
Trommer, John T., 1987, Potential for Pollution of the Upper Floridan Aquifer from Five
Sinkholes and an Internally Drained Basin in West-Central Florida: Water Resources
Investigation Report 87-4013, U.S. Geological Survey, Tallahassee, Florida., 103 p.
Beck, Barry F., and Jenkins, Dwight T., 1988, Potential for Groundwater Pollution of
the Floridan Aquifer, Based Upon Surficial Drainage, Karst Development, and
Overburden Characteristics: Map Series 87-88-1, Florida Sinkhole Research Institute,
University of Central Florida, Orlando, 6 p.
Beck, Barry F., Bloomberg, Diane, Trommer, John T., and McDonald, Kathleen, 1989,
A Field Guide to Some Illustrative Karst Features in the Tampa Area, Hillsborough
County, Florida: Report No. 89-90-1, Florida Sinkhole Research Institute, University of
Central Florida, Orlando, 60 p.
Beck, Barry F., and Sayed, Sayed, 1991, The Sinkhole Hazard in Pinellas County: A
Geologic Summary for Planning Purposes: Report No. 90-91-1, Florida Sinkhole
Research Institute, University of Central Florida, Orlando, 58 p. plus appendix.
Distributed by Pinellas County, Florida.
Frank, Edward F. and Beck, Barry F., 1991, An Analysis of the Cause of Subsidence
Damage in the Dunedin, Florida Area 1990/1991: Florida Sinkhole Research Institute,
University of Central Florida, Orlando, 60 p.
Trommer, John T., 1992, Effects of Effluent Spray Irrigation and Sludge Disposal on
Ground Water in a Karst Region, Northwest Pinellas County, Florida: Water Resources
Investigation Report 91-4181, U.S. Geological Survey, Tallahassee, Florida., 32 p.
Barr, G.L., 1993, Application of Ground-Penetrating Radar Methods in Determining
Hydrogeologic Conditions in a Karst Area, West-Central Florida: Water Resources
Investigation Report 92-4141, U.S. Geological Survey, Tallahassee, Florida., 26 p.
       However, by the late 1980’s and early 1990’s the role of karst was part of the
state-of-practice in hydrogeology in Florida. See, for instance, the 1987 USGS publi-
cation Potential for Pollution of the Upper Floridan Aquifer from Five Sinkholes
and an Internally Drained Basin in West-Central Florida,
 Water-Resources
Investigation Report 87-4013 by John Trommer, wherein it states wi
th reference to the
semi-confining layer in the Summary and Conclusions (p. 99) “A clay l
ayer, ranging
from about 1 foot to 100 feet in thickness, is often discontinuous, or breached by
relict sinks in many places at all the sites.” (Bold added for emphasis.) Trommer
(1992) in reporting on a site close to the Stauffer site with a similar semi-confining
layer, illustrates the interconnection of the Surficial and Floridan Aquifers via karst
features (see Figure 1 herein) and states, “…the residuum is breached in many
places, allowing good hydraulic connection to the underlying limestone.” (p. 11.)




Figure 1: Cross-section of the surficial aquifer, the semi-confining layer (residuum),
and the Floridan Aquifer in northwest Pinellas County near Wall Spring showing the
discontinuous nature of the residuum and the common presence of karstic “shafts”
connecting the surficial and Floridan aquifers. From Trommer (1992, Figure 5.) The
orientation of the section is approximately N-S, with B’ to the North, and the width of
the entire cross-section is approximately one mile.

       At the Stauffer site the occurrence of karst and the role of karst processes in the site
hydrogeology was not mentioned in the Record until after completion of the Feasibility
Study and issuance of the ROD (1998). The first reference to the karstic nature of the site
appearing in the Record is Black & Veatch, 2000, which was written under contract to EPA.
        The karstic nature of the site impacts the potential for pollution of the Floridan
Aquifer because karstic features commonly breach the SCL. Moreover, it complicates
the remedial design because of the potential for ground collapse or subsidence. The
Record shows that none of the reports written until 2000 mentioned the karstic nature
of the site, including the ROD (1998). This is a technical omission which impacts the
validity of the hydrogeologic reports, the ROD, and the remedial selection. The karstic
nature of the site should have been integrated into the understanding of the
hydrogeologic framework from at least 1992 onward. By 1992, numerous reports that
documented the karst setting of the region had been published and were publicly
available (see Table 1). Moreover, this shortcoming should have been detected and
corrected in the technical review process.
        A specific shortcoming in the site studies is that the interpretation of the ground­
water flow on site has been generalized and does not reflect the actual field data.
Beginning with Seaburn and Robertson (1987) and continuing though Parsons, 2003,
the reports have consistently said “the net ground-water flow direction at the site, in
both aquifers, is to the southwest toward the Anclote River” (Seaburn and
Robertson, 1987, p. 28) or some variation of that statement. However, the water-
level data from the site, even historically (Seaburn, 1987 in Figures 10 and 11 and
Weston, 1993, in Figures 4-8, 4-10 and 4-11), indicated a change in gradient over a
significant area of the site. The spacing and orientation of the contours changes
dramatically. The water-level data points were too widely spaced, the number of well
nests limited, and further investigation was warranted. Supplemental wells (Additional
Studies) have been recently installed and similar variations in gradient and also
direction continue to be documented (Parsons, 2003, in Figures 6, 7, 8, 9, 10, 11, 14,
15, 16, 17, 18, 19, and 23 and diagrams provided at the Technical Review Committee
meeting [October 22, 2003]). However, consultants for the PRP (Parsons, 2003, p. 3­
5) report their generalized interpretation as “the ground-water flow direction in the
South Parcel consistently is to the southwest towards the Anclote River.”
        For some water-level plots, the generalized depiction of ground-water flow was
contradictory to the data and incorrect at specific locations. As an example supporting
this statement, follow this discussion on Figure 2 herein (an unmodified copy of a
portion of Figure 6, Parsons, 2003). The black arrow in the center of the site indicates
ground-water flow to the southwest. Well MW 93-4 (located generally southwest of the
arrow-head on the figure) indicates a ground-water level of 3.73 feet above sea level.
Well MW 93-2 (generally northeast of the arrow end) indicates a ground-water level of
3.58 feet above sea level, lower than at well MW-93. Because water flows downslope,
that arrow should be generally opposite to its orientation on Parson’s figure.

       While some generalization of water-table contours is common, the generalization
shown in Figure 2 does not consider important details and thus makes the interpretation of
the flow locally incorrect. When all the data points are interpreted together, the arrow
showing the flow direction would be generally opposite to its current orientation, pointing
approximately northeast, and the flow net would be more complicated than shown. If a
more detailed flow net was drawn on Figure 2, there would be a large area with ground
water flowing toward well MW 93-2 and sinking there. This data may be indicative of the
interconnection between the surficial aquifer and the Floridan aquifer at the paleokarst
collapse feature later identified by O’Brien and Gere Engineers, Inc. & Technos, Inc. (2003)
near MW 93-2. A detailed interpretation and discussion of the shallow water table data, as
explained for Figure 2, has not been presented to date.
        In comments on the recent ground-water study (Parsons, 2003) the Pinellas
County Health Department stated “This report was less than adequate in collecting
sufficient groundwater elevation data in the pond and process areas to estimate the
vertical and lateral hydraulic gradients of the surficial and Upper Floridan aquifers” and
“This report was less than adequate in documenting the potential for cross-connection
Figure 2: A portion of Parsons’ Figure 6 (2003). North is toward the top of the diagram.
between the surficial and Upper Floridan aquifers.” In the Response to Comments,
Pinellas County Health Department-July 22, 2003, Ground-water Studies Report
by Parsons Engineering Science, Inc., page 1, regarding ground-water elevation data,
Parsons responds “This frequency of water level measurements was sufficient to
estimate ground-water flow direction and gradients at the site.” Throughout these
responses Parsons states that the contaminant concentration data and the ground-
water elevation data are adequate to define the flow system and the interconnection
between the shallow and deep aquifers. Whether or not the data itself is adequate,
no detailed flow net analysis has been completed to define the flow pattern relative to
a potential interconnection between the surficial and Floridan aquifers. If a detailed
flow pattern were plotted on the water table data shown in Figure 2 (Parson’s data
from Figure 6, 2003) it would define a sinking point indicating interconnection between
the aquifers.
       The ROD for the Stauffer site defines two operable units, OU-1 and OU-2, as
follows. “This is the first of two operable units planned for the Site. This operable unit
addresses the source of the soil and ground-water contamination by treating and
containing the source material. The second operable unit will address the
contaminated ground water in the surficial aquifer.” (ROD, 1998, Declaration, p. 1).
During the Superfund process it is not uncommon for operable units to be established,
studied separately, addressed in distinct documents, and then to be remediated
individually. However, it appears that in this case, after the separate operable units
were ”established,” OU-2 was not addressed further. The extent of contaminants in
ground water is not well defined, and the interrelationship of the surficial aquifer and
Floridan aquifer in the vicinity of the paleokarst feature is not defined/understood. The
density of sampling points (wells) is too coarse to detect and delineate a small plume.
However, water samples from the surficial aquifer could be collected by direct push
methods without incurring the cost of additional well construction. It is noted that the
occurrence of constituents of concern appears in “hot spots” rather than plumes. If
there is migration of these constituents, there should be a plume or plumes. If, as
noted, no plume exists, then it is a critical part of understanding the site hydrogeology
to explain why there is no plume.
      In summary, the question at hand is “Whether testing done and studies
conducted prior to Superfund site clean-up remedy selection were both effective and
timely enough to characterize the site, especially considering hydrogeologic
considerations.” PELA’s comments are briefly summarized below.

       1. A thorough description and understanding of the regional and site geology
          and hydrogeology should have been incorporated into all comprehensive
          reports. Hydrogeologic characterization prior to Black and Veatch (2000)
          was not adequate.

       2. Geophysics should have been used to supplement the understanding of the
          site hydrogeology, including measurement of geophysical logs for the
          monitoring wells. Prior to the report of O’Brien and Gere Engineers, Inc. &
           Technos, Inc. (2003) geophysical technology was utilized largely as a metal
           detector.

       3. The karstic nature of the site could have a major impact on contaminant
          migration and the design of the remedy. It was not addressed until Black
          and Veatch (2000). It should have been an integral part of the understanding
          of the site hydrogeology, at least from 1992 onward.

       4. A detailed interpretation of the surficial ground-water flow pattern and the
          relationship between the surficial aquifer and the Floridan Aquifer was not
          made in a timely fashion, and has not been made to date.

       5. The migration of contaminants in the ground water (OU2) has not been
          adequately studied and considered.

TASK TWO: Whether the Additional Studies, chiefly the ground-water and
geophysical studies, adequately demonstrate the remedy will be protective of
human health and the environment and alleviate, as far as is technically
practicable, the pre-eminent concerns of local stakeholders, citizens, and citizen
groups.

        The Additional Studies have provided the necessary information on the site
hydrogeology. The geophysical investigations and subsequent interpretations by
O’Brien and Gere Engineers, Inc. & Technos, Inc. are more comprehensive, better
documented, and more detailed than the recent site work and interpretation by
Parsons, even with respect to the hydrogeologic setting of the site. Parsons (2003)
has not addressed the ground-water flow in the shallow aquifer in sufficient detail
regarding direction of movement and the relationship of the surficial and Floridan
aquifers, as described above in Task One comments. Moreover, the hydrogeologic
report does not address numerous other questions that the data raises: for example,
(1) What happened to the 900 drums of roaster fines, (2) Why were contaminants
detected across the river initially but are not any longer, and (3) Why are there only hot
spots and no plumes? In general, if later data on the extent of contamination
contradicts earlier data, there should be an explanation. O’Brien and Gere Engineers,
Inc. & Technos, Inc. (2003) have identified the critical components of the site
hydrogeologic framework through their geophysical studies. Parsons (2003 and
comments) has not integrated the findings from O’Brien and Gere Engineers, Inc. &
Technos, Inc. (2003) fully into their understanding of the hydrogeology and has not
sufficiently addressed the site hydrogeology in a comprehensive conceptual fashion.

        However, as long as the understanding of the hydrogeologic framework of the
site, as described in O’Brien and Gere Engineers, Inc. & Technos, Inc. (2003) and
subsequent comments and responses, governs the remedial process, and if the
recommendations of the current geophysical report are followed, then the remedy can
be protective of human health and the environment. The remedial design should
alleviate, as far as is technically practicable, the concerns of local stakeholders,
citizens, and citizen groups. However, remedial activities must not result in a breach of
the SCL and should avoid the paleocollapse area, as defined by O’Brien and Gere
Engineers, Inc. & Technos, Inc. (2003).

        PELA agrees, in concept, that the information now available is adequate for the
remedial design and to protect human health and the environment, although the
understanding of the ground-water flow system should be expanded and refined.
However, the final remedial design should be prepared by specialized engineers
qualified and experienced in similar designs in karst settings. Further, the remedial
design should address variations in the depth and thickness of the SCL, setbacks from
the paleokarst feature, the potential for ground settlement, adequate monitoring and
control of ground-water flow and the potential for induced settlement during
construction and any dewatering. As long as the remedial action solidifies the
contaminants into a non-leachable solid with a long life-span, whether it is one large
mass or broken into smaller pieces, then the process should be protective of human
health and the environment.

TASK THREE: Whether the planned remedy of in situ solidification and
mounding and capping will protect human health and the environment and be
effective in the long term, taking into consideration all we (EPA) know about
potential dangers such as: karst formations: sink hole potential; severe weather
events like hurricanes; and the proximity of the Floridan ground-water/drinking
water source, tidal forces, and drought and urbanization influences.

        PELA concurs that the conceptual design of the remedy should be effective,
within the limits of their expertise as geologists/hydrogeologists, not engineers.
However, the design at this stage is only a concept. The specific engineering design
of the remedy must be prepared by a qualified engineering firm that is experienced in
similar designs in karst settings. The detailed remedial design must take into account
the karstic nature of the site with respect to both ground-water flow and structural
stability. Ample evidence should be provided that the final in-situ solid resulting from
this process will be stable and not leach contaminants, whether it is in one large mass,
or smaller pieces. If, as was discussed during one of the Technical Review Committee
meetings, the remedial process may produce a granular mass resembling dry granola,
then it must be amply demonstrated that these particles, even if they have subsided
downward into voids in the Floridan Aquifer or if they are uncovered by a hurricane
and transported in seawater, will not leach or weather at a rate that will be deleterious
to human health or the environment.

TASK FOUR: Whether the Additional studies, segments of them and/or prior
studies should have been conducted earlier (prior to when they were
conducted), differently, and/or better, taking into consideration the Superfund
criteria and technology of the “day”.

      The efforts and comprehensive objectives of the Additional Studies should have
been undertaken prior to the ROD or at least as part of the Remedial Investigation
phase. The Additional Studies are not “too” late, but they are unnecessarily late. It is
a credit that the need for the Additional Studies was realized.

       The review and comment period, based on the Record, occurred starting in
1991 continuing through January 1993. The reviews of the plans and previous
investigations were completed by various EPA scientists and representatives of
NOAA. Geophysical techniques were discussed only in very limited comments, the
responses to which indicated that the investigations to that date (Delta, NUS and
Weston) had been for specific areas and were not successful because of “anthropo­
genic interference,” such as underground utility lines, construction debris, existing
plant operations or metal bearing rock.. As discussed in other portions of this report,
the Additional Studies recently completed were multi-technique, comprehensive and
conclusive. The need for such studies should have been recognized during the
comment period (1991 through January 1993).

       The comments (and subsequent responses) during this specific period were
focused primarily on soils, sediments and the compounds to be analyzed—the
mechanics of completing the tasks and not necessarily the elements or the concept of
the tasks. Comments often addressed the information that was provided in the reports,
rather than what information should have been provided in the reports. Deficiencies in
hydrogeologic information were recognized in some of the comments. Additional wells,
additional work to establish the direction of ground-water movement, determination of
site specific aquifer characteristics based on quantitative data, and a better
understanding of the relationship between the surficial and Floridan aquifers and the
intervening semi-confining clay layer were all suggested. Note that some of these
aspects of hydrogeologic information have still been discussion topics during recent
Technical Review Committee meetings in 2003. As described above in the Task 1
comments, some of these issues still have not been thoroughly addressed.

        The Remedial Investigation was completed in December 1993. Drafts of the
report and any comments and responses issued prior to finalization of the RI Report
are not indicated in the Record. Based on review of the Record, from the inception of
site investigations and through the Remedial Investigation process, the investigations
were most focused on collecting data and evaluating the anthropogenic features of the
site, such as process areas, waste ponds, sediments, etc., and the resulting potential
impacts to the site. The comprehensive hydrogeologic framework and conceptual
model of the site, within which those features and impacts occur and which controls
them, was not established from either a regional or a site specific perspective; and
there was no recognition of the critical importance of the karstic nature of the site.

       The timing and level of effort of the Additional Studies is a unique situation
(post-ROD) in that so much investigation has been accomplished recently, after the
ROD and remedial selection. Several potentially critical findings, such as the
existence of the paleocollapse area, have only recently been documented. The
Additional Studies represent up-to-date techniques and methodologies, are generally
technically competent, and generally provide an adequate interpretation and reporting
of subsurface conditions on the site, although they still do not provide a detailed
interpretation of the shallow ground-water flow and contaminant transport. These
studies should have been conducted earlier. These studies shoul
d have taken place
prior to or in concert with a comprehensive ground-water study. Si
te characterization
using geophysical techniques, as in the current Geophysical Report (O’Bri
en and Gere
Engineers, Inc. & Technos, Inc., 2003), should have been conducted prior to the ROD.
However, the investigation should have started with a geophysical reconnaissance of
the entire site with one technique, and then been refined using a second, different
geophysical technology and possibly a third. Since no single method of measurements
will uniquely define subsurface conditions, the combination
 of measurements and
integrated sources of data offers a significantly improved capability
 to assess
subsurface conditions and reduce the uncertainty of the conceptual mode
l. However,
the entire site did not need to be investigated using all geophysical
methods.

       PELA’s extensive comments relevant to Task One, above, also pertain to this
question.

TASK FIVE: Whether the planning, implementation, and any results (briefed,
draft, or final) of the Additional Studies and the indirect techniques used are
providing an effective means to determine if the planned Superfund site remedy
of in situ solidification and mounding and capping will be effective, long-term,
and without undue dangerous side effects. The expert must also take into
consideration whether acquisition and quality control of the data are adequate,
appropriate, and accurate.

        Yes, the multiple and overlapping geophysical techniques that have been
applied and interpreted during the Additional Studies have provided an effective
means of studying the site hydrogeologic framework. The additional nested wells, the
analyses of ground water therefrom, and the geophysical logs thereof, have all helped
refine the understanding of the site hydrogeology, although not all of the hydrogeologic
data has been adequately interpreted regarding the direction of
 ground-water
movement and the relationship of the surficial and Floridan aqui
fers, as described
above in Task One comments. Again, the concept of the remedial
 technology has
been planned, but the detailed remedial design is forthcoming and will require
specialized engineering expertise to formulate and implement a detailed design and to
monitor that implementation.

TASK SIX: If the proposed remedy is not adequate to protect human health and
the environment and/or if its long-term effectiveness is doubtful, and/or its use
would endanger the Floridan aquifer’s usefulness as a drinking water source for
about half of Florida'
                     s residents, we (EPA) will need detailed input regarding
what would be required to adequately plan an alternative remedy, hydro-
geologically.

             See Tasks Two, Three and Five, above.
                      References Cited and Documents Reviewed
                 by P.E. LaMoreaux and Associates, Inc., 2003 & 2004�


Anon., Aug. 5, 1992, EPA Reaches Agreement with Chemical Company for Study of
      Stauffer Chemical Tarpon Springs Superfund Site, Environmental News, U.S.
      Environmental Protection Agency, 2 p.
Anon., Sept. 4, 2003, Review Comments from the Technical Review Committee,
      Groundwater and Geophysical Studies
40 CFR § 300, Mar. 8, 1990 and as amended, National Oil and Hazardous
     Substances Pollution Contingency Plan (NCP)
Barr, G.L., 1993, Application of Ground-Penetrating Radar Methods in Determining
       Hydrogeologic Conditions in a Karst Area, West-Central Florida: Water
       Resources Investigation Report 92-4141, U.S. Geological Survey, Tallahassee,
       Florida., 26 p.
Beck, Barry F., 1986a, A Generalized Genetic Framework for the Development of
      Sinkholes and Karst in Florida, U.S.A.: Environ Geol Water Sci Vol. 8, Nos. 1/2,
      p. 5-18.
Beck, Barry F., 1986b, Ground Water Monitoring Considerations in Karst on Young
      Limestones: Proceedings of the Environmental Problems in Karst Terranes and
      Their Solutions Conference, Oct. 28-30, 1986, Bowling Green, KY, National
      Well Water Association, Dublin, Ohio. p. 229-247
Beck, Barry F., and Jenkins, Dwight T., 1988, Potential for Groundwater Pollution of
      the Floridan Aquifer, Based Upon Surficial Drainage, Karst Development, and
      Overburden Characteristics: Map Series 87-88-1, Florida Sinkhole Research
      Institute, University of Central Florida, Orlando, 6 p.
Beck, Barry F., and Sayed, Sayed, 1991, The Sinkhole Hazard in Pinellas County: A
      Geologic Summary for Planning Purposes: Report No. 90-91-1, Florida
      Sinkhole Research Institute, University of Central Florida, Orlando, Distributed
      by Pinellas County, Florida, 58 p. plus appendix.
Beck, Barry F., and Wilson, William L., 1987, The Karst Hydrogeology of the Central
      West Coast of Florida and some Associated Engineering Techniques: Report
      No. 86-87-1, Florida Sinkhole Research Institute, University of Central Florida,
      Orlando, 79 p.
Beck, Barry F., Bloomberg, Diane, Trommer, John T., and McDonald, Kathleen, 1989,
      A Field Guide to Some Illustrative Karst Features in the Tampa Area,
      Hillsborough County, Florida: Report No. 89-90-1, Florida Sinkhole Research
      Institute, University of Central Florida, Orlando, 60 p.

� PELA has attempted to make a complete listing of all reports that were reviewed during this project.
However, in view of the large number of reports, letters, and memoranda with their procedural
complexity and the lack systematic specificity, some documents which were reviewed may have been
omitted from the list.
Black & Veatch Special Projects Corp, May 8, 2000, EPA Region 4 Response Action
      Contract, Contract No. 68-W-99-043, 38 p.
Cherry, R.N., and Brown, D.P., 1974 Hydrogeologic Aspects of a Proposed Sanitary
      Landfill Near Old Tampa Bay, Florida: Report of Investigations No. 68, U.S.
      Geological Survey, State of Florida Dept. of Natural Resources
DELTA Geophysical Services, Dec. 1986, Geophysical Investigation, Stauffer
     Chemical Company, Tarpon Springs, Florida
Florida Dept. of Environmental Protection, Mar. 1995, Stauffer Chemical – Tarpon
       Springs: Additional Risk Assessment Comments, Letter of Mar. 28, 1995, to
       Maxwell Kimpson from George Heuler, U.S. EPA, 109 p.
Florida Dept. of Environmental Protection, Sept. 25, 1996, Re: Stauffer Chemical -
       Tarpon Springs: Review of Draft Record of Decision (ROD), Letter to Maxwell
       Kimpson, US EPA Reg. IV, from George Heuler, 3 p.
Florida Dept. of Environmental Protection, Mar. 31, 1997, Re: Stauffer Chemical –
       Tarpon Springs: Contaminants of Concern, Letter to Maxwell Kimpson, U.S.
       EPA Reg. IV, from George Heuler, 1 p.
Florida Dept. of Health and Rehabilitative Services, Preliminary Public Health Assess­
       ment, Stauffer Chemical Company/Tarpon Springs, Tarpon Springs, Pinellas
       County, Florida, CERCLIS No. FLD010596013, 72 p.
Frank, Edward F. and Beck, Barry F., 1991, An Analysis of the Cause of Subsidence
       Damage in the Dunedin, Florida Area 1990/1991: Florida Sinkhole Research
       Institute, University of Central Florida, Orlando, 60 p.
Galloway, Devin, Jones, D.R., and Ingebritsen, S.E., eds., 1999, Land subsidence in
      the United States: U.S. Geological Survey Circular 1182, 175 p.
Heath, Ralph C., and Smith, Peter C., 1954, Ground Water Resources of Pinellas
      County, Florida: Water Resource Studies, Report of Investigations No. 12,
      Florida Geological Survey, State of Florida State Board of Conservation, 139 p.
Kimpson, Maxwell J., Apr. 23, 1997, Request for a Removal Action (Temporary
     Relocation) Stauffer Chemical/Tarpon Springs Superfund Site, Tarpon Springs,
     Pinellas County, Florida, Action Memorandum to Richard D. Green, Waste
     Management Division, U.S. EPA, U.S. Environmental Protection Agency
     Region IV, 7 p.
Knochenmus, Lari A., and Robinson, James L., printed 1996, Descriptions of
     Anisotropy and Heterogeneity and Their Effect on Ground-Water Flow and
     Areas of Contribution to Public Supply Wells in a Karst Carbonate Aquifer
     System: U.S. Geological Survey Water-Supply Paper 2475, 47 p.
Knochenmus, Lari A. and Yobbi, Dann K., 2001, Hydrology of the Coastal Springs
     Ground-Water Basin and Adjacent Parts of Pasco, Hernando, and Citrus
     Counties, Florida: Water Resources Investigation Report 01-4230, U.S.
     Geological Survey, Tallahassee, Florida., 88 p.
Lane, Ed, 1986, Karst in Florida, Special Publication No. 29, State of Florida, Dept. of
      Natural Resources, Div. of Resource Management., Bureau of Geology,
      Tallahassee, Florida. 86 p.
NUS Corporation, 1988a, Potential Hazardous Waste Site, Site Inspection Report,
     EPA Form T2070-13 (7-81), 10 p.
NUS Corporation, 1988b, Final Expanded Site Investigation Report, Stauffer Chemical
     Company, Tarpon Springs, Pinellas County, Florida, Vol. I, Revision 0, 83 p.
     plus Appendices A – F
NUS Corporation, Apr. 18, 1990, Interim Final Listing Site Inspection Report Stauffer
     Chemical Company Site, Tarpon Springs, Pinellas County, Florida, EPA ID No.
     FLD010596013, 203 p.
O'
 Brien and Gere Engineers, Inc., Feb. 2002, Draft Geophysical Studies Work Plan,
     27 p. plus Appendices A – K
O'
 Brien and Gere Engineers, Inc., and Technos, Inc., June 2003, Draft Geophysical
     Studies Report, Stauffer Management Company, Tarpon Springs, Florida, 62 p.
     plus Figures and Appendices A – S
Ogden Environmental and Energy Services, Aug. 1996, Transmittal of Tarpon Springs
     Deliverables, including Summary of Florida RODs (Task 1) and Allowable Risk
     Levels (Task 3), Memorandum of Aug. 9, 1996, to Joe Birkmeier, Zeneca, Inc.,
     from Paul Anderson, 139 p.
Parsons Engineering Science, Inc., Aug. 1996, Remedial Construction Information
      Document for the Stauffer Management Company Tarpon Springs, Florida Site,
      56 p.
Parsons Engineering Science, Inc., Dec. 1999, Baseline Groundwater Monitoring
      Report, Vols. I and II, Sections 1 – 5 plus Appendices A – C
Parsons Engineering Science, Inc., June 2002, Groundwater Studies Work Plan
      Stauffer Chemical Company Superfund Site Tarpon Springs, Florida, 27 p.
Parsons Engineering Science, Inc., May 2003, Draft Groundwater Studies Report
      Stauffer Management Company, Tarpon Springs, Florida, Sections 1-7 plus
      Figures and Appendices A – G
Parsons Engineering Science, Inc., and Technos, Inc., Sept. 2003, Response to
      Comments, Groundwater Studies Report, Geophysical Studies Report, not
      paginated
Pegg, R. Kevin and Saunders, Mary S., Sept. 1996, Technical Assistance Report to
      Pi-Pa-Tug on the Stauffer Tarpon Springs Superfund Site, Report on the
      Remedial Investigation/Feasibility Study, 23 p.
Pi-Pa-Tag, Inc., Sept. 12, 1996, Pi-Pa-Tag, Inc Comments to EPA, Stauffer Chemical
      Plant Superfund Site Feasibility Study September 12, 1996, 2 p.
Roy F. Weston, Inc., Aug. 1990, Stauffer Management Company, Tarpon Springs,
      Florida, Plant Site Sampling Report, Sections 1 – 5 plus Appendices A – D
Roy F. Weston, Inc., Jan 1993, Stauffer Management Company, Tarpon Springs,
      Florida Site, RI/FS Work Plan and Sampling and Analysis Plan Responses to
      EPA Review Comments, 124 p.
Roy F. Weston, Inc., Feb. 1993a, Final Sampling and Analysis Pl
an for Stauffer
      Management Company; Tarpon Springs, Florida (Includes Quali
ty Assurance
      Project Plan (QAPP) and Health and Safety Plan (HASP), 229 p.

Roy F. Weston, Inc., Feb. 1993b, Stauffer Management Company, Tarpon Springs,
      Florida Site, Final RI/FS Work Plan, 478 p.
Roy F. Weston, Inc., Dec. 1993a, Stauffer Management Company, Tarpon Springs,
      Florida, Final Site Remedial Investigation Report, Vol. I of V, 307 p.
Roy F. Weston, Inc., Dec. 1993b, Stauffer Management Company, Tarpon Springs,
      Florida, Final Site Remedial Investigation Report, Volume II of V, Appendix A,
      509 p.
Roy F. Weston, Inc., Dec. 1993c, Stauffer Management Company, Tarpon Springs,
      Florida, Final Site Remedial Investigation Report, Volume III of V, Appendices B
      – J, 264 p.
Roy F. Weston, Inc., Dec. 1993d, Stauffer Management Company, Tarpon Springs,
      Florida, Final Site Remedial Investigation Report, Volume IV of V, Appendix K,
      436 p.
Roy F. Weston, Inc., Dec. 1993e, Stauffer Management Company, Tarpon Springs,
      Florida, Final Site Remedial Investigation Report, Volume V of V, Appendix L,
      131 p.
Roy F. Weston, Inc., Jan. 1994, Results of Additional Soil and Groundwater Sampling
      Activities Conducted for the Contamination Assessment Report (CAR), 877
      Anclote Road, Tarpon Springs, FL, FDEP Facility ID # 528624677, Letter report
      of Jan. 21, 1994, to Robert Shay signed by W.H. Schneider, Harold G. Beyer,
      and Randall L. McAlister, 11 p. plus Appendices
Roy F. Weston, Inc., Feb. 1994. Groundwater Assessment Report MW93-5 Stauffer
      Management Company, 195 p.
Roy F. Weston, Inc., Nov. 6, 1995a, Revised Sections 3, 4, and 5 of the March 1995
      Feasibility Study by Weston, 103 p.
Roy F. Weston, Inc., Nov. 6, 1995b, Stauffer Management Company, Tarpon Springs,
      Florida Site, Response to EPA Comments on the "Final Feasibility Study
      Report" in the letter from: William C. Denman, USEPA, by Frank McNeice
      dated: Oct. 4, 1995, 21 p.
Roy F. Weston, Inc., Jan. 1996, Stauffer Management Company, Tarpon Springs,
      Florida Site, Final Feasibility Study Report, 339 p.
Sacks, Laura A., Swancar, Amy, and Lee, Terrie M., 1998, Estimati
ng Ground-Water
      Exchange with Lakes Using Water-Budget and Chemical Mass-Bal
ance
      Approaches for Ten Lakes in Ridge Areas of Polk and Highl
ands Counties,
       Florida: Water Resources Investigation Report 98-4133, U.S. Geological
       Survey, Tallahassee, Florida., 52 p.
Seaburn and Robertson, Aug. 1987, Hydrogeologic Assessment, Stauffer Chemical
     Company, Tarpon Springs Plant, Tarpon Springs, Florida, 40 p. plus
     Appendices A and B.
Sinclair, W.C. and Stewart, J.W., 1985. Sinkhole type, development, and distribution in
       Florida: U.S. Geological Survey, Map Series No. 110
Sinclair, W illiam C., Stewart, J.W., Knutilla, R.L., Gilboy, A.E. and Miller, R.L., 1985,
       Types, Features, and Occurrence of Sinkholes in the Karst of West-Central
       Florida: Water Resources Investigation Report 85-4126, U.S. Geological
       Survey, Tallahassee, Florida, 81 p.
Tihansky, Ann B., 1999, Sinkholes, West-Central Florida: in Galloway, Devin, Jones,
      D.R., and Ingebritsen, S.E., eds., 1999, Land subsidence in the United States:
      U.S. Geological Survey Circular 1182, p. 121-140.
Trommer, John T., 1987, Potential for Pollution of the Upper Floridan Aquifer from Five
     Sinkholes and an Internally Drained Basin in West-Central Florida: Water
     Resources Investigation Report 87-4013, U.S. Geological Survey, Tallahassee,
     Florida., 103 p.
Trommer, John T., 1992, Effects of Effluent Spray Irrigation and Sludge Disposal on
     Ground Water in a Karst Region, Northwest Pinellas County, Florida: Water
     Resources Investigation Report 91-4181, U.S. Geological Survey, Tallahassee,
     Florida., 32 p.
U.S. Environmental Protection Agency, 1988, Guidance for Conducting Remedial
      Investigations and Feasibility Studies Under CERCLA: EPA/540/G-89/004,
      OSWER Directive 9355.3-01
U.S. Environmental Protection Agency Region IV, Mar. 3, 1980, Potential Hazardous
      Waste Site Identification and Preliminary Assessment, EPA Form T2070-2 (10­
      79), 4 p.
U.S. Environmental Protection Agency Region IV, Nov. 28, 1980, Potential Hazardous
      Waste Site Site Inspection Report, EPA Form T2070-3 (10-79), 10 p.
U.S. Environmental Protection Agency Region IV, June 4, 1985, Potential Hazardous
      Waste Site – Preliminary Assessment, Parts I, II, and III, EPA Form T2070-12
      (7-81), 5 p.
U.S. Environmental Protection Agency Region IV, 1992, Comments on the RI/FS Plan,
      the Sampling & Analysis Plan, Site Soil Characterization Study (Weston 1990),
      Final Background Information Review Report (Weston, 1989), Sept. 1990
      Environmental Sampling at Tarpon Springs (Weston, 1990), Anclote River
      Sediment Sampling Report (Weston, 1991), and the Field Operations Plan
      (Weston, 1989), with attached reviews: Specific Comments on the RI/FS Plan
      and the Sampling and Analysis Plan, Document Review for the Stauffer
      Chemical Company Site EPA – Las Vegas, General Comments – Black and
      Veatch, National Primary Drinking Water Regulations (1992), Undated Letter to
      Frank R. McNeice from Maxwell J. Kimpson, 100 p.
U.S. Environmental Protection Agency Region IV, Feb. 1993, Remedial
      Investigation/Feasibility Fact Sheet Stauffer Chemical Company Proposed
      Superfund Site, 6 p.
U.S. Environmental Protection Agency Region IV, June 1, 1994, Amendment to
      Administrative Order by Consent for Remedial Investigation/Feasibility Study,
      Docket No. 97-27-C, (ordered June 3, 1998), 3 p.
U.S. Environmental Protection Agency Region IV, June 3, 1998, Amendment to
      Administrative Order by Consent for Remedial Investigation/Feasibility Study,
      Docket No. 97-27-C, (put into practice June 1, 1994), 3 p.
U.S. Environmental Protection Agency Region IV, May 1996, Superfund Proposed
      Plan Fact Sheet Stauffer Chemical/Tarpon Springs Superfund Site, Pinellas
      County, Tarpon Springs, Florida, 17 p.
U.S. Environmental Protection Agency Region IV, Record of Decision, The Decision
      Summary, Operable Unit I, Stauffer Chemical Tarpon Springs Site, Tarpon
      Springs, Pinellas County, Florida, 61 p. plus Appendix A
University of Florida Center for Environmental and Human Toxicology, Sept. 17, 1996,
      Re Review of Record of Decision, The Decision Summary, Operable Unit I,
      Stauffer Chemical Tarpon Springs Site, Tarpon Springs, Pinellas County,
      Florida, Letter from Stephen M. Roberts to Ligla Mora-Applegate, Florida Dept.
      of Environmental Protection 2 p.
Zeneca, Inc., Mar. 3, 1993, Re: SMC Tarpon Springs Site, Amendment to the RI/FS
     Work Plan and Sampling and Analyses Plan, Letter to Maxwell J. Kimpson, US
     EPA Reg. IV, from F.R. McNeice, 2 p.
Zeneca, Inc., Mar. 3, 1994, Re: Stauffer Chemical Site – Tarpon Springs, Monthly
     Progress Report – February 1994, Letter to Maxwell Kimpson, US EPA Reg.
     IV, from F.R. McNeice, 2 p.
Zeneca, Inc., Sept. 6, 1996, Re: Stauffer Chemical Company - Tarpon Springs,
     Florida, Information on Packing and Shipping Crude Phosphorus Materials, ,
     Letter to Maxwell Kimpson, US EPA Reg. IV, from F.R. McNeice, 17 p.
Zeneca, Inc., Oct. 15, 1996, Stauffer Management Company Tarpon Springs, Florida,
     Phosphorus Oxidation Emission Evaluation, 16 p.
                                                                                            Appendix B

                      Agency Response to Draft Report




                           UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                               REGION 4
                                  ATLANTA FEDERAL CENTER
                                     61 FORSYTH STREET
                                 ATLANTA, GEORGIA 30303-8960

                                                  May 21, 2004
Paul D. McKechnie
Acting Ombudsman
Office of Congressional and Public Liaison
EPA Office of Inspector General
Mail Code: 2491T
1200 Pennsylvania Avenue, N.W.
Washington D.C. 20460

SUBJ: Stauffer Chemical Superfund Site, Tarpon Springs, Florida

Dear Mr. McKechnie:

        Thank you for the opportunity to review your draft report concerning community
complaints about the Stauffer Chemical Superfund Site in Tarpon Springs, Florida.
EPA Region 4 is committed to addressing all of the community’s concerns relating to the
clean-up of the site, and we welcome your recommendations to help us in this effort.

         We have reviewed the draft final report of your investigation, and have the
following comment for your consideration:

         Background Section: It is stated that numerous private and municipal wells are
         located “near the site.” The text implies that these wells could be impacted by
         the site because of their proximity. EPA is not aware of any municipal drinking
         water wells close enough to be potentially affected by site contaminants.
         Further, EPA is not aware of any private well that has been contaminated by the
         site. All of the groundwater studies conducted at the site show that groundwater
         contamination is limited to areas of contaminant sources. No off-site migration
         pathways have ever been identified.

         We have considered the recommendations outlined in the report and agree to
implement them without modification. It is our belief that the additional studies have
sufficiently addressed the community concerns regarding site conditions and
effectiveness of the selected remedy.

         Thank you again for the opportunity to review the report and for your valuable
input.
                                                            Sincerely,
                                                                  J. I. Palmer, Jr. /s/
                                                                  Regional Administrator




                                                       39
                                                                                     Appendix C

                                       Distribution
Regional Administrator, Region 4

Region 4 Audit Followup Coordinator

Region 4 Superfund Regional Public Liaison

Director, Waste Management Division, Region 4

Assistant Administrator for Solid Waste and Emergency Response (5101T)

Assistant Administrator for Enforcement and Compliance Assurance (2201A)

Comptroller (2731A)

Agency Followup Official (the CFO) (2710A)

Deputy Chief Financial Officer (2710A)

Agency Followup Coordinator (2724A)

Audit Liaison, Office of Solid Waste and Emergency Response (5103T)

Associate Administrator for Congressional and Intergovernmental Relations (1301A)

Associate Administrator, Office of Public Affairs (1101A)

Inspector General (2410)





                                                40
